EMPLOYMENT VERIFICATION AT SAVANNAH RIVER SITE
____________________________________________________




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections




  Inspection Report

 Employment Verification at Savannah
 River Site




 INS-O-10-01                                 November 2009
                           Department of Energy
                              Washington, DC 20585

                                 November 5, 2009


MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER SITE



FROM:                 Herbert Richardson
                      Principal Deputy Inspector General

SUBJECT:              INFORMATION: Inspection Report on “Employment
                      Verification at Savannah River Site”

BACKGROUND

The Department of Energy’s Savannah River Operations Office and the National Nuclear
Security Administration (NNSA) are co-located on the Savannah River Site (Site) in
Aiken, South Carolina. Their primary missions include environmental management and
cleanup, national security, energy independence, and nuclear material disposition. The
prime management and operating contractors for the Site manage over 800
subcontractors, whose employees may be required to access the Site.

The Immigration Reform and Control Act of 1986 (Act) makes it illegal for entities and
individuals to knowingly hire, continue to employ, or recruit unauthorized workers. To
implement this policy, the Act and Executive Order 12989 require that U.S. employers,
including Federal contractors: 1) review specific employee identification documentation,
for example; drivers license, social security card, and passport; 2) ensure the documents
are genuine; and, 3) certify individuals are eligible to work in the United States. The Act
mandates that the information is collected and recorded on an “Employment Eligibility
Verification Form” (I-9 Form). Furthermore, the Executive Order prohibits federal
agencies from contracting with entities that do not comply with the requirements set forth
in the Act.

We conducted a review at the Site to determine if Site subcontractors verified the
employment status of all employees in accordance with Federal requirements and, if
unauthorized individuals accessed the site. During our field work, we reviewed 600 I-9
Forms from 21 subcontractors to verify whether Site subcontractors were using the I-9
Forms; and if the forms were accurate and complete. We also conducted a judgmental
sample of individuals who accessed the Site during a six-month period to determine if
there were any documentation anomalies.
RESULTS OF INSPECTION

We found that:

•      Four subcontractors contacted during our inspection failed to utilize the I-9 Form
       to determine worker eligibility. Subsequent to our review, two of the four
       subcontractors stated that, as a result of our review, they have started using the I-9
       Form; and,

•      Twenty-two percent (136) of the 600 I-9 Forms obtained from our sample of
       21 Site subcontractors were missing key elements, including the subcontractor’s
       affirmation that the identity documentation was reviewed and appeared authentic;
       and, the employee’s signature to affirm that the employment information was
       correct.

We made several recommendations designed to enhance employment verification at the
Savannah River Site.

MANAGEMENT REACTION

In responding to a draft report, management concurred with our recommendations.
Management’s comments are included in their entirety in Appendix C.

Attachment

cc:    Chief of Staff
       Assistant Secretary for Environmental Management
       Director, Policy and Internal Controls
       Director, Office of Internal Review (CF-1.2)
       Audit Liaison, Office of Environmental Management
       Audit Liaison, Savannah River Site Office
EMPLOYMENT VERIFICATION AT SAVANNAH RIVER SITE
____________________________________________________
TABLE OF
CONTENTS

                OVERVIEW

                Introduction and Objective                 1

                Observations and Conclusions               2


                DETAILS OF FINDINGS

                Employment Verification                    3

                Subcontractors Failed to Use I-9 Forms     3

                Incomplete I-9 Forms                       3

                Duplicate Use of Social Security Numbers   4

                E-Verify System                            4


                RECOMMENDATIONS                            5


                MANAGEMENT COMMENTS                        5


                INSPECTOR COMMENTS                         5


                APPENDICES

                A. Scope and Methodology                   6

                B. Prior Reports                           7

                C. Management Comments                     8
Overview

INTRODUCTION    The Department of Energy’s (Department) Savannah River
AND OBJECTIVE   Operations Office and the National Nuclear Security
                Administration (NNSA) are co-located on the Savannah River Site
                (Site) in Aiken, South Carolina. Their primary missions include
                environmental management and cleanup, national security, energy
                independence, and nuclear material disposition. The prime
                management and operating contractors for the Site manage over
                800 subcontractors, whose employees may be required to access
                the Site.

                The Immigration Reform and Control Act of 1986 (Act) makes it
                illegal for entities and individuals to knowingly hire, continue to
                employ, or recruit unauthorized workers. To implement this
                policy, the Act and Executive Order 12989 require that U.S.
                employers, including Federal contractors: 1) review specific
                employee identification documentation, for example, drivers
                license, social security card, and passport; 2) ensure the documents
                are genuine; and, 3) certify individuals are eligible to work in the
                United States. The Act mandates that the information is collected
                and recorded on an “Employment Eligibility Verification Form”
                (I-9 Form). Furthermore, the Executive Order prohibits federal
                agencies from contracting with entities that do not comply with the
                requirements set forth in the Act.

                The objective of our inspection was to determine if Site
                subcontractors verified the employment status of all employees in
                accordance with Federal requirements and, if unauthorized
                individuals accessed the site. During our field work, we reviewed
                600 I-9 Forms from 21 subcontractors to verify whether Site
                subcontractors were using the I-9 Forms; and if the forms were
                accurate and complete. We also conducted a judgmental sample of
                individuals who accessed the Site during a six-month period to
                determine if there were any documentation anomalies.

                The Office of Inspector General (OIG) has previously identified
                concerns regarding foreign employee access at an NNSA site and
                alleged loss or theft of personally identifiable information at
                another NNSA site. In addition, the Government Accountability
                Office (GAO) has identified a number of reports and testimonies
                on managing the “Employment Verification” programs throughout
                the Federal system. Some of these OIG and GAO reports



____________________________________________________

Page 1                                                  Employment Verification
                                                         at Savannah River Site
Overview
                   highlighted the need for improved management oversight in the
                   administration of the program. These related reports are identified
                   in Appendix B.

OBSERVATIONS AND   We found that not all Site subcontractors verified employment
CONCLUSIONS        eligibility in accordance with Federal requirements. This condition
                   allowed the possibility that individuals who are not eligible to
                   work in the United States (U.S.) could be employed by Department
                   subcontractors and potentially access the Site. We did not identify
                   any weakness regarding unauthorized employees having access to
                   the site. Specifically, we found that:

                   •   Four subcontractors contacted during our inspection failed to
                       utilize the I-9 Form to determine worker eligibility.
                       Subsequent to our review, two of the four subcontractors stated
                       that, as a result of our review, they have started using the I-9
                       Form; and,

                   •   Twenty-two percent (136) of the 600 I-9 Forms obtained from
                       our sample of 21 Site subcontractors were missing key
                       elements, including the subcontractor’s affirmation that the
                       identity documentation was reviewed and appeared authentic;
                       and, the employee’s signature to affirm that the employment
                       information was correct.

                   Additionally, we identified through a judgmental sample that 16
                   subcontractor employees may have had their social security
                   numbers used by other people in the general population not
                   associated with the Department. Our review revealed no evidence
                   that the 16 subcontractors were using fraudulent numbers.

                   To timely address these concerns, we notified NNSA and the
                   Savannah River Operations Office of our findings during the
                   course of our field work. NNSA’s Contracting Officer
                   immediately drafted a letter to the Mixed Oxide Fuel Fabrication
                   Facility contractor mandating them to ensure that their
                   subcontractors are aware of the requirement to comply with all
                   applicable laws and regulations. The letter also notified the
                   contractor that some of the subcontractors working on the Site
                   were not complying with statutory requirements to verify that
                   employees are U.S. citizens or are otherwise legally entitled to
                   employment in the United States.




____________________________________________________

Page 2                                             Observations and Conclusions
Details of Findings

EMPLOYMENT            Our inspection determined that some Site subcontractors did not
VERIFICATION          verify employment status in accordance with Federal requirements.

Subcontractors        We found that four subcontractors failed to utilize the I-9 Form
Failed to Use I-9     to determine worker eligibility. Subsequent to our review, two
Forms                 of the four subcontractors stated that, as a result of our review, they
                      have started using the I-9 Form. The I-9 Form requires the
                      employee to affirm that he or she is a U.S. citizen or is authorized
                      to work in the U.S. and to provide specific documentation to
                      establish identity and employment authorization. The Form also
                      requires that the employer certify that the documents presented
                      appear to be genuine, relate to the employee and that the employee
                      is authorized to work in the U.S. When interviewed as to why the
                      I-9 Forms were not being completed, the four subcontractors stated
                      that they were unaware of the I-9 requirement. The Site’s
                      management and operating contract mandates that the contractor
                      adhere to all federal laws and regulations. In addition, the
                      contractor is responsible to ensure subcontractors are aware of
                      their responsibility to adhere to all federal laws and regulations.

                      We observed that one of the subcontractors had augmented its
                      permanent employees by hiring day laborers to install and/or repair
                      carpet at various Site facilities. The subcontractor stated that in
                      these instances, the day laborers were not required to complete an
                      employment application, or provide any documentation validating
                      their identity or employment eligibility. We noted, however, that
                      prior to Site access, these laborers would be required to produce
                      appropriate identification documents. Using our investigative
                      on-line system, we did not identify any anomalies with the social
                      security numbers utilized by the day laborers.

Incomplete            We found that 22 percent (136) of the 600 I-9 Forms obtained
I-9 Forms             from 21 Site subcontractors were missing key elements, including
                      the subcontractor’s affirmation that the identity documentation was
                      reviewed and appeared authentic; and, the employee’s signature to
                      affirm that the employment information was correct.

                      Specifically, our review revealed missing or incomplete I-9 Form
                      information, including:

                      •   Employee’s attestation that he or she is a U.S. citizen or was
                          authorized to work in the U.S.;




____________________________________________________

Page 3                                                               Details of Findings
                   •   Employee’s signature acknowledging Federal law concerning
                       imprisonment and fines for false statements;

                   •   Documentation to establish identity and employment
                       authorization; and,

                   •   Employer’s signature certifying the employee documents were
                       examined, related to the employee and that the employee was
                       authorized to work in the U.S.

                   When questioned regarding the incomplete documentation, we
                   were informed by various subcontractor management officials that
                   the oversight in gathering and reviewing the required
                   documentation was inadequate.

Duplicate Use of   During our fieldwork, we selected a judgmental sample of 60
Social Security    names and social security numbers of individuals who had
Numbers            accessed the Site during a six-month period. As a result of using
                   an investigative on-line system, we found that 16 of the
                   subcontractor employees in our sample had social security
                   numbers that may have been used by other individuals in the
                   general population. Based on available documents and record
                   review, we did not determine that any of the 16 subcontractor
                   employees on site had used a false social security number to gain
                   employment. However, because their numbers were identified as
                   being used outside the Department, this matter has been forwarded
                   to the Social Security Administration for further review. This
                   information has been forwarded to the Site Office and NNSA
                   officials identifying the results of the OIG judgmental sample.

E-Verify System    In June 2008, an amendment to Executive Order 12989 required
                   Federal contractors verify employee’s eligibility with an electronic
                   employment verification system (E-Verify). E-Verify will provide
                   immediate feedback to the employer concerning the eligibility
                   status of the new hire including the validity of identification
                   documents. The Executive Order, published in the Federal
                   Register on November 14, 2008, had an effective date of
                   January 15, 2009. However, based on actions proposed by the
                   Civilian Agency Acquisition Council, the Defense Acquisition
                   Regulations Council, and the current administration, the
                   applicability of the final rule has been postponed until
                   September 8, 2009. On September 8, 2009, the US Citizenship
                   and Immigration Services issued an update notice that E-Verify
                   Federal Contractor rule had been implemented.


____________________________________________________

Page 4                                                          Details of Findings
____________________________________________________

                     During our review, we noted that three subcontractors utilized the
                     E-Verify system to validate the authenticity of the employee’s
                     information. One subcontractor indicated that if a discrepancy is
                     noted by E-Verify, the employee is allowed three business days to
                     address the discrepancy. In addition, we determined that a number
                     of subcontractors accessed other internet-based databases which
                     identify discrepancies regarding a social security number, date of
                     birth, current address, and passports. We asked subcontractor
                     officials who did not utilize the E-Verify or similar systems what
                     indicators they used to determine if the documentation provided by
                     an employee was authentic. In most cases, these officials told us
                     that they conducted a visual inspection of the documentation for
                     authentication. These officials also informed us that if an
                     employee were to provide a fake social security card, the
                     subcontractor officials would not be able to confirm its
                     authenticity. We noted that the E-Verify system would identify a
                     concern with the documentation. The increased use of E-Verify by
                     the Site subcontractors will help to ensure that the identity
                     documentation for employment belongs to the individual
                     presenting them.

RECOMMENDATIONS      We recommend the Manager at the Savannah River Site
                     Office:

                     1. Ensure contractors establish a method to notify existing and
                        future subcontractors to comply with federal requirements
                        related to employment verification; and,

                     2. Develop a process to notify contractors of the E-verify system.

MANAGEMENT           In comments on a draft of this report, the Department’s Savannah
COMMENTS             River Operations Office concurred with our recommendations.
                     We have included management’s comments in Appendix C.

INSPECTOR            We consider management’s comments to be generally responsive
COMMENTS             to our recommendations.




______________________________________________________________________

Page 5                                                      Recommendations
                                           Management and Inspector Comments
Appendix A

SCOPE AND     We reviewed the employment verification process used by
METHODOLOGY   subcontractors who provide goods and services at the Savannah
              River Site. As part of this inspection, we visited and interviewed
              subcontractor management officials and reviewed Federal laws
              governing work authorization for employment in the United States.
              The inspection fieldwork was conducted primarily during July
              through December 2008.

              To accomplish the inspection objective, we:

              •   Reviewed applicable Federal and Departmental policies and
                  regulations related to employment verification;

              •   Reviewed contract procedures pertaining to employment
                  verification;

              •   Reviewed prior OIG and Government Accountability Office
                  reports pertaining to hiring practices and site access;

              •   Reviewed a list of individuals who accessed the site during the
                  six-month period of July through December 2007;

              •   Interviewed Federal staff assigned to Savannah River Site as
                  well as contractors’ officials; and,

              •   Visited and interviewed 28 subcontractors that had contracts
                  with the Savannah River Site.

              As part of our review, we evaluated the Department’s
              implementation of the Government Performance and Results Act
              of 1993. Our review indicated that the Savannah River Site
              officials had not established performance measures related to
              employment verification.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                               Scope and Methodology
Appendix B

PRIOR REPORTS   The following are prior Department of Energy, Office of Inspector
                General reports:

                •   Letter Report on “Alleged Loss or Theft of Personally
                    Identifiable Information at Pantex,” INS-L-07-05, February
                    2007; and,

                •   Inspection Report on “Security Access Controls at the Y-12
                    National Security Complex,” DOE/IG-0691, June 2005.

                The following are examples of selected reports issued by the
                Government Accountability Office that had similar findings:

                •   “Weaknesses Hinder Employment Verification and Worksite
                    Enforcement Efforts,” GAO-06-895T, June 2006; and,

                •   “Challenges Exist in Implementing a Mandatory Electric
                    Verification System,” GAO-07-924T, June 2007.




Page 7                                                             Prior Reports
Appendix C


 •.-
 me-moraGo>t·!!!"nd~'·;t~u~m;;------;;;;;;~
 .....        :II                     h
                                            ;;~'·:·;-:""l5!L::=
                                            Alw"    G.ca ""


 ~ fY_
   ~ :,':::::':'
       N
                                     , •:.~_.
                 I .. ,-""", . , _ " •
                 WI;,QJ) !   •
                                                                                                   (5iJii3iiA~
         _      •••.'_ _ ~!loop>I:J~"'-(lG-IJ.HQ

         ~_ . . rc.lllJE.&Kdoo L; ....., .. _                                                                  -::='~'=:.:.
         :-='-::="i":;':':-
                                                                          ........... - . ......
                 _ a r~           OF:        _         ~!          'I' ,-                               011_'                -
                       'oIiP\oill:1lo 10li'Jl -
                                                                                   !   . .'     _ _


         ..or;.! , ' j                                         t
                                                                      •     -              ,.      -     - - ,      i'


         OII....,.1ll.lIX8.... OlIioool&i;        ,,,I' i                   (EMl_"qo·.... _                                ..
         _ _ _ will> liM - . . . _            ( _ 1.-.01 _                   - , . ~' :: li.o),                   ull'Ciooc Ill>
         __        ~ _           ... _ _ lri>'lo_ OOIo!_.,! , : . . . Ittr·..., ...
         ~      10 «<np!y,..;,t, Ih< .. ," t! 10... .". ...'    ~ ...           no
         . . . _ _004 II..... _ I f _ , .'-"10 - . fMMelo_Wolaw _                ..
         _,;. od"""'",        foe _            ... 1'0 ...... pool performDe< ~

         0. My 11, ZO(l~. tho DO&SlI. -<los ol1\ooro .... od lcll. . to ootlltaOlO<t. .. Tn<IIli<olo4 hlow. 'l1oo
         _      ~ "(I') of tho Nb<_... ~ Iro<n _ JucI_1Il "'"PI< a«nooollho Sioo Ill:ict
         ooolal_,--...         t~, bd ...j<dI, bem1    .,oci
                                                       bJlINlliplo _ . " TIoio .......... "" Il10010
         lllilll" iIl_i;oli" _0. '7II<mo _ _ 1lOl •. . - .. tho ,,,. _ , lhootG indi..,od "Thlo
         I"""-ioo hoi _
         .... ""' _ _ Io
                             f"",,_ .. "'" OIa', 0IlI<0 of
                                     ifill4iviNlollo<l. ...
                                                                11>_,,-
                                                           ...,..t1'uood__b" furthot rnift."
                                                                         .-wity"'-O,I<I-....
                                                                                                         tho ... n.....
         I!lo . . . . _i0oi tho         _.....&0 f7'lnlool:..l. "-i&I - , . - . <10., ..... _117
         .... 4011 '
         ..,._
                          io.lho..,-poWIo.· ~ .........
                                 _ _ Jl'lb/K_bot. .. '
                                                                                _oltloo_of_-,...-..
                                                                    IOIM/J .......   I ll, .... -II._-.IO)r
                                                                                       !

         _ h . _ _ 01                   1_ .. " " , _

         Tbopoo<oobo_.,.tho _ _ SC~$U)" _ _
         foW.  ,.",-WI     -  . _ ...........   _      .... _  "'I«tB"".Io_
                                                              _10_     UIio_ ....
         __ .......""" ......                Iloo_01"'_.··                   .....,.
         Ilooo-.
         _it.         .    _"""ODOOIO_
                   hrlXEO .,           ....   _*""'_.DOe_tm__'-._....
                                          TIIlo ............ -   ·-' , - - . _ .
                                                                              flSPO,
         It ....... ,   ..          - " "..... _ _                     J - 4 _ 'fbo             'D!lo_ .....


         .......
         D-V~.     it. ... _ _
         ....." .. _ - . . _ nc_otE-V~wiI~_""'_ 'n· •
                   _-,,~"'_-.._,.,                                               ..._oD._
                            .......a,. ..... - - - . . . - ori!I "" "",,_l!Ir ..., .,..




Page 8                                                                                                 Management Comments
Appendix C

                                                                 ,
         _DOIf...sR _ _ ........                w,·••• _ .
         M.         , .........
         ...         ' "1'                        •__ . _.. -tr ......... ~ ••,                                             _
         .~_-..                   ,"       . _. . . .'               • •0 5 .




                                                                                   OI'"~-~~-§j'-§i.;.~§-~'.~l-~
                                                                                                            .
         1_                )"*"I'JI'OfNl<                      de.


                  ,......, . ...,....._""_1Io
                                   ..............
                                       . . . " '........[.'
                                                           _                  oK      ]     --. _ _              -     __
         -..t_DQE.-U;oe;",ofA<>oo·
         e-.r. _ oll4ir l! E)      .... M .                     St'
                                                                _ C •;         ....
                                                                               _
                                                                              ..... _                ,    j    ~ .$     ...
                                                                                                 01_
         j..
         _~~'~_~_onI"                  I               11M                •                                   ' 5 S '• • .-if)'
                                  _ot_~                        ,I)        ll!' '3jV..!!.....    ,Iw; . . if_    ill

         ,
               -.~                                                                               : H    tJ'_o,QIlol_




                                       ~~
         ............... JlOII.3l ...._ . . . .        1              •                   . . """""'" _       DOl: _        Dol)
         'lD~""            '~_         DDl!M _....,                  ~             _ _ of.
                                                                              10,...-
         - ' _ o l ~ " u.s. .~l               V "_ ~ ... _....-. ....... _
                                                   I                                Sf.
         \IoolaiIl&lI' $     ........... ' .       OSR 10-,.1.......... """--,.
                                                : · . , . _. . . .                   ..
         Silo.- _ _ or ow. JO.JOl. OS'               : ~ b Now s..-q            or Silo
         _"'''''''n ".
          •1                           0(""""""
                                ill - . otlloo ~ _
                  _ ....... 10 _ _
                                                        pooilioo _s..- of ; ' , . . ....


         R           ..lIN %:     "1)0.....". _                 '" ootiI'1 ..._ . of            1lle E->olll)' .,.... . _
         i.o¥l~    .....

         . . _.jool_.
         0Iln<w'. SR", "'Pi_ of . . poItl<ioI. _
                                  orr"",..
                                                        ... of .... ~ ..... fy S)'Il_           S;"".
                                                                                             11>0 f"'>'C!f)' 0)'_
                                           (S.,-I, tooP) withio. th FeoIor:tl A«r"'iIioo.lto~ (PAl).
         SA "JS 00P iaclu<llllf tho fAll. ,Iou.. lJ.2D-I', " ~ _ EW;ibility Vorifico.tioo.' it. _ _
         _ Ill. _1«1 eauinod In PAR 21.1101, ''CGo-. <1....<." EM '/rill p;ovido~. p/lllalIOO
         '. lIoId orrleu for I!-~ NLT 0.:_ 31. 2009. ""'"' IJOI'OflUly, EM;' ~ ,. pI<Mdl..
         ~ . ~ .. lIOo                 ud "Ill &.oludo 1M               of'" ~ Vaif)- _ _ lo ito Ao<l_
         M                   .... Mol          lioI«I:l             ooti>ili..... tII _ fi<4<I ~ 0I'l1<o"
         - -... ~ ... ~..,....,._tlytllo                                                <01 .. EM Jim. por l!N-lfO
         t.-din<tio<liol. ,..,..




Page 9                                                                                               Management Comments
                                                              IG Report No. INS-0-10-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers’
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s
   overall message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
